symguee  (CXQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

THOMAS J. SKELTON, Petitioner,
v.
ILLINOIS SUPREME COURT, ILLINOIS BOARD OF ADMISSIONS
TO THE BAR, AND COMMITTEE ON CHARACTER AND FITNESS
FOR THE FIRST JUDICIAL DISTRICT, Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 7275 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 5th day of June, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GEAERAL HOTARY State of Nebraska
[herman | Kone. 0. theo Ondiao tl Chl
iy Comm. Exp. September 5, 2022

Notary Public 7 Affiant 39801

   
